No. 20A161
CAPITAL CASE

IN THE SUPREME COURT OF THE UNITED STATES

 

STATE OF OKLAHOMA, Applicant,
-vs-

SHAUN MICHAEL BOSSE, Respondent.

 

To the Honorable Neil M. Gorsuch,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Tenth Circuit

 

 

CERTIFICATE OF SERVICE
FRANK S. HOLLEMAN, IV STEPHEN GREETHAM
Counsel of Record Senior Counsel
Douc.as B. L. ENDRESON MEREDITH TURPIN
SoONOSKY, CHAMBERS, SACHSE, Associate General Counsel
ENDRESON & PERRY, LLP CHICKASAW NATION
1425 K Street, NW, Suite 600 Office of Senior Counsel
Washington, DC 20005 4001 N. Lincoln Blvd
fholleman@sonosky.com Oklahoma City, OK 73105
dendreson@sonosky.com stephen.greetham@chickasaw.net
Phone: (202) 682-0240 meredith.turpin@chickasaw.net
Phone: (580) 272-5236
DEBRA GEE
Chief Counsel
CHICKASAW NATION
Office of Tribal Justice Administration
P.O. Box 1548
Ada, OK 74821
debra.gee@chickasaw.net

Phone: (580) 436-7233

Attorneys for Amicus Curiae Chickasaw Nation
I, Frank S. Holleman, IV, a member of the Bar of this Court, hereby certify
that on this 7th day of May 2021, I served one original and two copies of the MOTION
FOR LEAVE TO FILE AMICUS CURIAE BRIEF OF THE CHICKASAW NATION
with the attached AMICUS CURIAE BRIEF OF THE CHICKASAW NATION to this
Court and sent a courtesy copy via first-class mail, postage pre-paid, to each of the
following:

Michael W. Lieberman

Sarah M. Jernigan

Emma Rolls

Susan Otto

215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102

Mike Hunter
Attorney General
Mithun Mansinghani
Solicitor General
Jennifer L. Crabb
Caroline E.J. Hunt
Assistant Attorneys General
313 NE Twenty-First St.
Oklahoma City, OK 73105

 

SONOSKY, CHAMBERS, SACHSE,

ENDRESON & PERRY, LLP
1425 K St NW, Suite 600
Washington, DC 20005
fholleman@sonosky.com
(202) 682-0240
